V

MCGRAW & STRICKLAND tic

ATTORNEYS AT LAW

CERTIFICATE OF COMPLIANCE

No. 20-

KATHY CONTRERAS, on behalf of her minor child A.L.,
Petitioner,

v.

DONA ANA COUNTY BOARD OF COUNTY COMMISSIONERS,
doing business as DONA ANA COUNTY DETENTION CENTER;
PACO LUNA; JAIME CASADO; and SHAYLENE PLATERO,
Respondents.

As required by Supreme Court Rule 33.1(h), I certify that the
petition for a writ of certiorari contains 7,187 words, excluding
the parts of the petition that are exempted by Supreme Court

Rule 33.1(d). I declare under penalty of perjury that the foregoing
is true and correct.

Executed on 4 , December 2020

te
Margaret Strickland
Counsel of Record
Member of USSC Bar

165 West Lucero Ave. | Las Cruces, NM 88005 | PH: 575-523-4321 | FXx:575-680-1200 | www.lawfirmnm.com
V

MCGRAW & STRICKLAND tc

ATTORNEYS AT LAW

CERTIFICATE OF SERVICE

No. 20-

I, Margaret Strickland, hereby certify that one (1) copy of the
foregoing Petition for Writ of Certiorari in Contreras v. Dona Ana
Board of County Commissioners, doing business as Dona Ana
County Detention Center, et al, was sent via USPS Certified Mail
to the U.S. Supreme Court, and three copies (3) were sent via
USPS Certified Mail to the following parties listed below, this 4h
day of December, 2020:

Damian L. Martinez, Esq.

Mynatt Martinez Springer PC

1660 Hickory Loop

Las Cruces, NM 88005

Tel: 575-524-8812; Fax: 575-524-0726
dim@mmslawpc.com

Counsel for Respondents

\. sees Candle)
Margzret Strickland

Counsel of Record
Member of USSC Bar

165 West Lucero Ave. | Las Cruces, NM 88005 | PH: 575-523-4321 | FX: 575-680-1200 | www.lawfirmnm.com
